                                    SOCIAL SECURITY

MEMORANDUM

Date:   July 26, 2005                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Nation-wide Review of Individual Representative Payees for the Social Security
        Administration (A-13-05-25006)


        The attached final report presents the results of our audit. Our objective was to confirm
        that beneficiaries in the care of representative payees existed; and, through personal
        observation and interviews, determine whether the beneficiaries’ food, clothing and
        shelter needs were being met.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                             S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  NATION-WIDE REVIEW OF INDIVIDUAL
   REPRESENTATIVE PAYEES FOR THE
   SOCIAL SECURITY ADMINISTRATION

     July 2005    A-13-05-25006




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
Our objective was to confirm that beneficiaries in the care of representative payees
existed; and, through personal observation and interviews, determine whether the
beneficiaries’ food, clothing and shelter needs were being met.

BACKGROUND
We conducted a nation-wide review of individual representative payees serving 14 or
fewer beneficiaries who met our selection criteria. As of May 2004, there were about
4.3 million of these representative payees managing about $35.1 billion in benefit
payments annually for approximately 5.5 million beneficiaries and recipients. To
provide statistically valid nation-wide projections, we selected 275 payees for review.

RESULTS OF REVIEW
We confirmed the existence of all 359 beneficiaries that were in the care of the
275 representative payees in our sample. We concluded, through personal observation
and interviews, that the food, clothing and shelter needs of 356 beneficiaries were being
met. For these individuals, nothing came to our attention that would lead us to believe
the representative payees did not use the Social Security benefits received for the
beneficiaries’ needs. For the remaining three beneficiaries, we could not conclude the
food, clothing and shelter needs of the beneficiaries were being met.

We found 13 representative payees did not comply with certain Social Security
Administration (SSA) policies. Eight payees acted as conduit payees, and five payees
failed to report to SSA events that may have affected eligibility or benefit payment
amount. Representative payees function as conduit payees by providing the
beneficiaries or other third parties the entire amount of the benefit payment without
instruction. In addition, SSA did not take prompt action on events reported by payees
that could have affected the amount of benefit payments or the beneficiaries’ right to
receive payments; information in SSA’s Representative Payee System was not always
accurate; and the Agency did not provide us all Representative Payee Reports for the
beneficiaries included in our review.

RECOMMENDATIONS

We recommend that SSA (1) increase outreach efforts to educate representative
payees on their responsibility to manage the beneficiaries’ funds appropriately and
report any changes that may affect the beneficiaries’ eligibility or benefit payment
amounts and (2) take appropriate follow-up actions to ensure the 10 recommendations
reported to the Regional Commissioners are implemented.



Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)            i
AGENCY COMMENTS
In its comments to our draft report, SSA agreed with our recommendations. See
Appendix G for the full text of SSA’s comments.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)   ii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

All Beneficiaries Existed and Most Had Their Needs Met .......................................3

We Could Not Conclude All Beneficiaries’ Needs Were Being Met.........................4

Representative Payees Did Not Comply with Certain SSA Policies ........................5

    •    Representative Payees Serving as Conduit Payees ....................................5

    •    Representative Payees Failed to Report Significant Events to SSA.............8

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

OTHER MATTERS ...............................................................................................11

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology

APPENDIX E – Sampling Results in Regions with “At-risk” Dollars

APPENDIX F – Characteristics of the Sample and Population

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)
                                                                            Introduction
OBJECTIVE

Our objective was to confirm that beneficiaries in the care of representative payees
existed; and, through personal observation and interviews, determine whether the
beneficiaries’ food, clothing and shelter needs were being met.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’1 benefit payments.2 A representative payee may be
an individual or an organization. SSA selects representative payees for Old-Age,
Survivors and Disability Insurance (OASDI) beneficiaries and Supplemental Security
Income (SSI) recipients when representative payments would serve the individual’s
interests.

SSA’s primary concern is to select the payee who will best serve the beneficiary’s
interest; and preference is normally given to a parent, legal guardian, spouse, or other
relative of a beneficiary.3 SSA considers payments to a representative payee to have
been used for the benefit of the beneficiary if they were spent on the beneficiary’s
current maintenance—which includes the costs “…incurred in obtaining food, shelter,
clothing, medical care, and personal comfort items.”4

We conducted a nation-wide review of individual representative payees serving 14 or
fewer beneficiaries who met our selection criteria. As of May 2004, there were about
4.3 million of these representative payees managing about $35.1 billion in benefit
payments annually for approximately 5.5 million beneficiaries. To provide statistically
valid nation-wide projections, we selected 275 payees for review. See Appendices B,
C, and D for detailed discussions of the Background, Scope, and Sampling
Methodology.




1
 The term “beneficiaries” is used generically to refer to both Old-Age, Survivors and Disability Insurance
beneficiaries and Supplemental Security Income recipients.
2
 The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
1383(a)(2)(A)(ii).
3
    20 C.F.R. §§ 404.2021 and 416.621.
4
    20 C.F.R. §§ 404.2040(a) and 416.640(a).


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                               1
Table 1 identifies the number and location of representative payees and beneficiaries
we reviewed.

                  Table 1: Individual Representative Payee Population
                             Population of       Payees       Beneficiaries
           SSA Region           Payees         Reviewed        Reviewed
          Boston                 190,789            11              14
          New York               366,253            22              29
          Philadelphia           441,756            31              41
          Atlanta              1,067,319            75              96
          Chicago                747,924            39              49
          Dallas                 547,142            36              51
          Kansas City            187,489            14              25
          Denver                  98,145             7                8
          San Francisco          528,006            35              41
          Seattle                131,956             5                5
               Total           4,306,779           275             359




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)          2
                                                    Results of Review
We confirmed the existence of all 359 beneficiaries who were in the care of the
275 representative payees in our sample. Of the 359, we also concluded the needs of
356 beneficiaries were being met. For the remaining three beneficiaries, we could not
conclude the food, clothing and shelter needs were being met. Because we only
identified three cases where the beneficiaries’ needs were not being met, our results do
not support an estimate. Therefore, we did not make a projection based on these three
cases.

Although most of the beneficiaries’ needs were being met, we found eight
representative payees acted as conduit payees, and five payees failed to report to SSA
events that may have affected a beneficiary’s eligibility or payment amount.

All Beneficiaries Existed and Most Had Their Needs Met

During our review, we confirmed the existence of all 359 beneficiaries who were in the
care of the 275 representative payees. These representative payees received and
managed about $2.6 million annually in benefit payments. Furthermore, we determined
the needs of most beneficiaries included in our review were met. We determined,
through personal observation and interviews that 356 beneficiaries’ food, clothing and
shelter needs were being met. For these individuals, nothing came to our attention that
would lead us to believe the representative payees did not use the Social Security
benefits received for the beneficiaries’ needs.

Our contact with the 275 payees included in our review provided local SSA staff the
opportunity to address other issues facing the payees and beneficiaries. Below are
examples of situations local SSA staff addressed as a result of our review.

•   At the time of our visit to Burlington, Vermont, the beneficiary was 17 years old and
    receiving OASDI survivor benefits—which will stop when she reaches age 18.
    Based on our observations and those of the SSA District Manager who
    accompanied us on our visit, it appeared the beneficiary may have been eligible for
    disability benefits. The SSA District Manager told the representative payee how to
    apply for disability benefits for the beneficiary; and the representative payee was
    grateful for the information.

•   Accompanied by an SSA field office (FO) employee, we visited a woman in Fenton,
    Michigan. The woman served as representative payee for her 15-year-old daughter,
    who was receiving OASDI survivor benefits. During our interview, the FO employee
    answered the representative payee’s questions on the proper use of SSA benefits.
    The representative payee expressed gratitude for the information the FO employee
    provided.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)              3
•   Accompanied by an SSA FO employee, we visited a woman in Cedar Rapids, Iowa,
    who served as a representative payee for her 9-year-old son. The beneficiary
    received SSI disability benefits for cerebral palsy.5 The beneficiary was unable to
    walk, but the representative payee could not afford to purchase a wheelchair.
    Therefore, the representative payee had to carry the child. During our interview, the
    representative payee asked if there was an assistance program to help her obtain a
    wheelchair. The FO employee provided the representative payee with the name of
    an organization known for providing assistance to disabled children. The FO
    employee also answered the representative payee’s question on receipt
    maintenance. The representative payee expressed gratitude for the information the
    FO employee provided.

We Could Not Conclude All Beneficiaries’ Needs Were Being Met

Of the 359 beneficiaries included in our review, we could not conclude the food, clothing
and shelter needs of 3 beneficiaries in the care of 3 representative payees were being
met. One beneficiary’s basic shelter needs were met, but the representative payee did
not ensure the remaining funds were used to meet the beneficiary’s other needs. We
could not verify the living conditions for another beneficiary. Finally, one beneficiary
was incarcerated during our review period, so we could not observe his living
arrangements when he was not incarcerated. Additional information concerning these
beneficiaries is discussed below.

•   In the New York Region, we found a beneficiary’s current representative payee
    intended to continue a practice established by the previous payee. The previous
    representative payee paid the beneficiary’s rent of $350 per month and then gave
    free access to the remaining $300 of his benefit payments. At the time of our
    review, the beneficiary received $587 monthly since his benefits were reduced to
    repay an overpayment. The current representative payee stated she would continue
    the same practice established by the previous representative payee of paying the
    rent of $350 per month and providing free access to the remaining $237 per month.
    Given this situation, the representative payee did not ensure a significant portion of
    the beneficiary’s benefits were used to meet his current needs, such as food and
    clothing. This is of particular concern in light of the beneficiary’s admission that he
    does not have enough money for food. At the current benefit rate, approximately
    $2,844 per year is at-risk of not being managed appropriately.

    In January 2005, SSA asked the servicing FO to meet with the representative payee
    to ensure she understood the role and responsibilities of serving as payee and the
    events that need to be reported to SSA. In addition, the FO was advised to re-
    contact the representative payee 6 months after the meeting to obtain an updated
    accounting.



5
 Before the interview, the representative payee relocated in the Cedar Rapids area and did not report the
change of address to SSA. SSA updated its records to reflect the change of address.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                          4
•         In the Philadelphia Region, we could not determine whether a representative payee
          was meeting a beneficiary’s shelter needs because we were unable to determine
          where the beneficiary was living. The beneficiary was interviewed in the lobby of the
          apartment building where SSA’s records showed the representative payee and
          beneficiary were living. However, during our interview, the representative payee
          contradicted this information. We requested that SSA follow up on the case to
          determine where the representative payee was living and whether a change of
          payee was indicated. In November 2004, a new payee was appointed at the
          beneficiary’s request. At the time of our review, approximately $7,092 per year was
          at-risk of not being managed appropriately.

•         In the Atlanta Region, a beneficiary was incarcerated during our review period. We
          could not observe his living arrangements when he was not incarcerated. As a
          result, we could not determine whether his food, clothing and shelter needs were
          being met by the Representative Payment Program. We referred this case to SSA
          for review. We were subsequently advised that the Agency had appointed the
          beneficiary as his own payee. An SSA staff member explained the local FO was
          unable to locate any other individual or agency to serve as the beneficiary’s
          representative payee.

Representative Payees Did Not Comply with Certain SSA Policies

Of the 275 representative payees reviewed, we found 13 representative payees did not
comply with certain SSA policies. During our review, we found payees who did not
decide how benefit payments were used or did not comply with the policies for reporting
significant events to the Agency. Specifically, we determined eight payees functioned
as conduit payees. Further, we found five payees failed to report events that could
have affected the amount of benefit payments the beneficiaries received or the
beneficiaries’ right to receive benefit payments. In some instances, more than one
condition may have applied to the same payee.

                        SSA policy states that conduit payees do not exercise control
Representative          over the funds and cannot accurately account for how the funds
Payees Serving as       are spent.6 See GN 00605.066 B.2 for SSA’s definition of
Conduit Payees          conduit payee. SSA policy states a conduit payee situation may
                        indicate lack of payee interest or the beneficiary is capable of
                        managing his or her own benefits. When a conduit payee is
indicated, SSA is required to determine whether a new payee is needed or if the
beneficiary is capable of receiving direct payment.7 We found eight payees serving nine




6
    SSA Program Operations Manual System (POMS) GN 00605.067 D.1.
7
    Id.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                 5
beneficiaries functioned as conduit payees by providing the beneficiaries or other third
parties the entire amount of the benefit payment without instruction.8

Based on the results of our review, we estimate approximately 125,288 conduit
representative payees were in our sample population of those representative payees
who served 14 or fewer beneficiaries. These payees managed about $1.1 billion
annually in benefit payments (Appendix D).

•   In the Philadelphia Region, a representative payee (who was the beneficiary’s sister)
    turned over the entire $611 in monthly benefits to the beneficiary without providing
    direction or instruction on how to spend it and did not account for how the funds
    were spent. This occurred because the representative payee believed the
    beneficiary was capable of managing her own benefits. As a result of our interview,
    SSA reevaluated the beneficiary’s need for a representative payee and determined
    the beneficiary was capable of managing her own benefits. The beneficiary was
    subsequently appointed as her own payee.

•   In the Philadelphia Region, one individual was the representative payee of record,
    but had relinquished his duties to another individual. The representative payee (who
    was the beneficiary’s father) turned over the entire $603 in monthly benefits to the
    beneficiary’s mother. The payee no longer controlled the funds nor could he
    account for how the funds were used. Because the beneficiary lived with his mother,
    she was paying the bills and maintaining records. Additionally, the payee failed to
    report that the beneficiary had moved and was no longer in his care. As a result of
    our review, SSA initiated a change of payee for this beneficiary and, on
    December 15, 2004, appointed the mother as representative payee.

•   In the Atlanta Region, a representative payee (who was the beneficiary’s mother)
    was appointed for the beneficiary in February 2003 and managed a monthly benefit
    of $527.9 During our interview, the representative payee stated the beneficiary’s
    payment was electronically deposited into a bank account. Further, the
    representative payee stated the entire amount of the benefit payment was withdrawn
    and provided to the beneficiary without direction or instruction about how to use the
    funds. Given this situation, the representative payee was not ensuring benefit
    payments were used to meet the beneficiary’s food, clothing and shelter needs. We
    were subsequently advised the Agency appointed the beneficiary as his own payee.

•   In the Denver Region, we found a representative payee’s two nieces, the
    beneficiaries, originally resided at the representative payee’s residence. Each
    beneficiary received a monthly SSA benefit payment of $564. At the time of our

8
  Except for one beneficiary, we received from SSA the Representative Payee Reports submitted for the
beneficiaries they served. The Representative Payee Reports did not indicate that the payees reported
the conduit relationship to the Agency.
9
 The monthly amount of $527 began April 2004 including both OASDI and SSI monthly benefit
payments.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                          6
     interview, the beneficiaries no longer lived with the representative payee. One
     beneficiary, age 19, met the representative payee at the bank each month where the
     representative payee withdrew the monthly benefit payment and provided the
     beneficiary the funds. The representative payee planned to provide the other
     beneficiary, age 16, with the monthly SSA benefit payment and let the beneficiary
     decide how the funds were spent. We notified the Denver Regional Office of the
     circumstances, and it instructed the Denver, Colorado, District Office to determine
     whether a change in representative payee was warranted. The Denver Regional
     Office informed us that it determined the beneficiaries were capable of managing
     their own funds and made them their own payees.

•    In the San Francisco Region, two representative payees10 turned over the entire
     amount of the benefit payments to their two beneficiaries without providing any
     direction or instruction on how to use the funds. The two representative payees
     believed the beneficiaries were capable of managing their own benefits. These two
     representative payees managed a total of $1,274 per month for the beneficiaries
     they served. At this rate, these representative payees were not managing
     approximately $15,288 per year. The SSA staff attending the interviews advised the
     representative payees to visit the Agency’s local FOs so SSA could determine
     whether the beneficiaries were capable of managing their own benefits.

     For one representative payee, we were subsequently advised the FO interviewed
     the payee. The FO also separately interviewed the beneficiary. The beneficiary
     indicated she was comfortable with the arrangement and did not want to receive her
     check directly. The FO explained to the payee that he should exercise more
     authority over how the money was spent, and he agreed to do so.

     For the other representative payee, we were advised the Agency had appointed the
     beneficiary as his own payee.

•    In two more San Francisco Region cases, the two representative payees11 of record
     had relinquished their duties to other individuals. In both cases, the representative
     payees may not have been the best suited payees for these beneficiaries. These
     two representative payees had relinquished their duties to other individuals who
     were unknown to SSA, and the individuals had not filed applications to be
     representative payees. The monthly benefit amounts of the beneficiaries served by
     these two representative payees totaled $1,695. At this rate, these representative
     payees were not managing approximately $20,340 per year. The SSA staff who
     attended the interviews advised the individuals to visit the Agency’s local FO and
     apply to be representative payees.


10
  One representative payee was the father of the beneficiary, and the other payee was the brother of the
beneficiary being served.
11
  One representative payee was the father of the beneficiary, and the other payee was the mother of the
beneficiary being served.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                         7
      We were subsequently advised that the FO interviewed the representative payee
      and spoke to the nursing home where the beneficiary was confined. Although the
      payee only spoke Spanish, the Agency indicated he understood his payee
      responsibilities, and the FO determined that he was the proper payee. Concerning
      the other payee, the Agency made the beneficiary’s adult sister the new
      representative payee.

                           One of a representative payee’s responsibilities is to notify SSA
Representative             of any event that would affect the amount of benefits the
Payees Failed to
                           beneficiary receives or the beneficiary’s right to receive
Report Significant
                           benefits.12 We found five payees managing the funds for eight
Events to SSA              beneficiaries failed to report to SSA events that could have
                           changed the amounts of, or eligibility for, benefit payments.

•     In Little Rock, Arkansas, a representative payee informed us that the recipient
      earned extra money baby-sitting. The additional income had not been reported to
      SSA and could potentially have affected benefit payment amounts. Depending on
      the amount of money earned, the recipient’s income could reduce payments by up to
      the total $564 payment amount. The Supplemental Security Record for this
      individual was updated on September 28, 2004 to reflect this income.

•     In New Orleans, Louisiana, we met with a representative payee who was managing
      $1,692 in monthly benefits for her three disabled children. It was determined that
      she had self-employment income that she had not reported to SSA. The
      representative payee told the SSA representative that she could not answer
      questions related to this income until she reviewed her records. This unreported
      income could affect benefit amounts and/or eligibility. The Agency’s FO is following
      up on this matter.

•     In Keithville, Louisiana, a representative payee (mother of a 2-year-old SSI recipient)
      did not disclose she was married to, and living with, the child’s father. This
      previously undisclosed condition could reduce the $391 per month paid to this
      recipient. The representative payee was interviewed in August 2004, and the FO
      determined the child’s father did not live in the household.

•     In Santa Domingo Pueblo, New Mexico, a representative payee (mother of a
      13-year-old SSI recipient) did not report to SSA she had been unemployed for nearly
      1 year. Wages from her previous employment resulted in a reduction of the child’s
      monthly benefit amount from $564 to $376. Consequently, the child may have been
      underpaid during the period of her mother’s unemployment. The Supplemental
      Security Record for this individual was updated on December 2004 to increase the
      benefit amount for the recipient effective January 2005, and to issue an
      underpayment in the amount of $4,645.66 for the retroactive period.


12
     SSA POMS, GN 00502.113 C.1 and SI 02301.005 B.2.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)               8
•   In Austin, Texas, a 2-year-old child in the household was eligible for OASDI benefits
    under the retired father’s account. The other children in the household were
    receiving OASDI benefits; however, the 2-year-old had never been established on
    the record. The two children receiving benefits were receiving a combined monthly
    total equal to the family maximum limit for auxiliary beneficiaries of $657 per month
    ($328 each per month). With the third child’s eligibility, each child would be entitled
    to one-third of the $657 per month. An auxiliary beneficiary application was
    processed on December 7, 2004.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)            9
                                                          Conclusions and
                                                         Recommendations
During our review, we confirmed the existence of all 359 beneficiaries who were in the
care of the 275 representative payees in our sample. Generally, we determined the
needs of most beneficiaries included in our review were met. We determined, through
personal observation and interviews that 356 beneficiaries’ food, clothing and shelter
needs were being met. For these individuals, nothing came to our attention that would
lead us to believe the representative payees did not use the Social Security benefits
received for the beneficiaries’ needs. However, for three representative payees caring
for three beneficiaries, we could not conclude their needs were being fully met. We
believe monthly benefit payments totaling about $9,936 annually for two of these
beneficiaries were at risk of not being managed appropriately.

We also identified representative payees who did not comply with SSA policies by
functioning as conduit payees or failing to report significant events to the Agency. We
believe individual representative payees serving 14 or fewer beneficiaries should be
periodically reminded of their duties as representative payees. SSA can inform these
payees of concerns that emerge when representative payees serve as conduit payees,
or fail to report to SSA events that may affect eligibility or benefit amounts. For
example, highly visible reminders explaining representative payee duties can be
included with the annual Representative Payee Reports. We believe including such
reminders as a part of the annual accountability process will increase representative
payee awareness of their duties.

RECOMMENDATIONS
Specifically, we recommend that SSA:

1. Increase outreach efforts to educate representative payees on their responsibility to
   manage the beneficiaries’ funds appropriately and report any changes that may
   affect their capacity to serve as the representative payee or any changes that may
   affect beneficiaries’ eligibility or benefit payment amounts.

2. Take appropriate follow-up actions to ensure the 10 recommendations reported to
   the Regional Commissioners are implemented.13

AGENCY COMMENTS
In its comments to our draft report, SSA agreed with our recommendations. See
Appendix G for the full text of SSA’s comments.

13
     These reports can be found on our web site at www.ssa.gov/oig.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)         10
                                                                       Other Matters
SSA Failed to Take Timely Action for Three Events
During our review, we found SSA failed to take timely action for three events that could
have affected the amount of benefit payments the beneficiaries received or the
beneficiaries’ right to receive benefits.

Overdue Continuing Disability Review

After an individual is determined to be disabled, SSA is required to periodically
determine whether the individual is still disabled.14 To carry out this statutory
requirement, a continuing disability review is conducted at selected intervals.15

In Baton Rouge, Louisiana, a woman was a representative payee for her two disabled
children and was also an SSI recipient. During our review, we determined the mother
and one child were overdue for a continuing disability review. The SSA FO initiated
continuing disability reviews for all three recipients. There is no monetary effect unless
a recipient is deemed ineligible resulting from the continuing disability review.

Changes in Income and Living Arrangement

Representative payees must report events, such as changes in income and living
arrangements, on behalf of SSI recipients.16 SSA must act quickly to determine
whether such events affect the recipient’s SSI eligibility or payment amount.17

For two beneficiaries in our sample, we found that SSA did not take prompt action on
the events reported by their representative payees. These events involved SSI
recipients who had changes in income and living arrangements. Although both
representative payees had notified the Agency’s FO of these events, SSA did not
perform a timely review to determine whether the recipients’ entitlement or payment
amount was affected. As a result, one recipient received $340 in SSI overpayments.

•     One representative payee maintained a household for his stepdaughter, stepson,
      and son (the recipient). The representative payee informed SSA that his
      stepdaughter and stepson had moved out of the household in April and July 2004,
      respectively. However, these individuals were still included as part of the household
      at the time of our site visit. Because of the change in living arrangements, the
14
     The Social Security Act §§ 221(i) and 1633, 42 U.S.C. §§ 421(i) and 1383b.
15
     SSA POMS, DI 28001.001 A.
16
     SSA POMS, SI 02301.005 B.2.
17
     SSA POMS, SI 02301.010 C.1 and C.2.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)           11
      recipient received $340 in SSI overpayments for March through September 2004.
      During our review, SSA took corrective action and established the overpayment.

•     In the other case, the representative payee and his wife (the recipient) moved into
      an apartment in May 2004. The representative payee received free rent and utilities
      as the apartment manager and promptly reported such income to SSA. However, at
      the time of our site visit, SSA had not determined whether the change in income
      affected the recipient’s entitlement or payment amount. SSA subsequently
      performed a redetermination and concluded the change in income did not result in
      an overpayment.

Inaccurate Data Reported in the Representative Payee System
SSA established the Representative Payee System (RPS), an on-line system that
contains data about representative payee applicants; individuals in the representative
payee’s care; and the relationship between the representative payee and the
beneficiaries they serve.18

Within RPS, one data collection screen19 requests the following information pertaining to
an individual representative payee applicant: name legend preference, telephone
number, mailing address, if the residence address is the same as the mailing address,
and if the applicant has ever been convicted of a felony.

An additional screen20 captures the residence address21 information and the date of the
current residence address for the applicant/representative payee. The screen requests
prior address information if the applicant/representative payee has resided at his or her
current residence for less than 1 year.

During our regional reviews of individual representative payees, we identified five
categories of inaccurate data contained in RPS.22 We found the following
inconsistencies in beneficiary and representative payee information.

•     The same individuals’ names were spelled differently in the Master Beneficiary
      Record, SSI Record, and Numident.


18
     Social Security Act § 205(j)(3)(F), 42 U.S.C. 405(j)(3)(F).
19
     Modernized System Operations Manual 239-D.
20
     Modernized System Operations Manual 239-E.
21
     Representative Payee’s physical location.
22
  SSA OIG, Individual Representative Payees for SSA in the New York Region (A-02-05-15049),
Individual Representative Payees for SSA in the Philadelphia Region (A-14-05-15050), Individual
Representative Payees for SSA in the Atlanta Region (A-13-05-15051), and Individual Representative
Payees for SSA in the Dallas Region (A-06-05-15053).


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                       12
•     The same individuals’ addresses and telephone numbers were different in RPS than
      in the Master Beneficiary and Supplemental Security Records.

•     Wrong, incomplete, or outdated telephone numbers or addresses were found in the
      Master Beneficiary Record, SSI record and RPS.

•     Post office boxes were incorrectly identified as representative payees’ residence
      addresses.

•     Wrong addresses were listed for the representative payee and/or beneficiary.

Without complete and accurate information, SSA may be unable to effectively monitor
the performance of individual representative payees.

Retrieval of Representative Payee Reports
One method SSA uses to monitor representative payees is the Representative Payee
Report (RPR). The RPR assists SSA in determining the (1) use of benefits during the
preceding 12-month reporting period, (2) representative payee’s continued suitability,
and (3) continued need for representative payment.23

We requested RPRs for some of the beneficiaries served by payees included in our
sample. Of the 282 RPRs24 we requested, SSA provided 232 (82.3 percent). An
Agency employee indicated various reasons for not providing the remaining 50 RPRs.
These reasons included RPRs were either not available or not returned by the payees.
Below is the breakout of RPRs requested and received by region.

                              Region               RPRs                    RPRs
               Region          Name              Requested                Received
              I           Boston                     14                      12
              II          New York                   19                      15
              III         Philadelphia              30                       26
              IV          Atlanta                    68                      57
              V           Chicago                   41                       33
              VI          Dallas                     41                      31
              VII         Kansas City                15                      14
              VIII        Denver                      6                       6
              IX          San Francisco              32                      27
              X           Seattle                    4                        4
              Total                                 282                     232




23
     SSA POMS, GN 00605.001 B.1.
24
     We only requested RPRs for beneficiaries in the care of representative payees for more than 1 year.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                             13
                                            Appendices




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)
                                                                          Appendix A

Acronyms
 C.F.R.            Code of Federal Regulations
 FO                Field Office
 OASDI             Old-Age, Survivors and Disability Insurance
 POMS              Program Operations Manual System
 RPR               Representative Payee Report
 RPS               Representative Payee System
 SSA               Social Security Administration
 SSI               Supplemental Security Income
 U.S.C.            United States Code




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)
                                                                                    Appendix B

Background
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’1 benefit payments.2 A representative payee may be
an individual or an organization. SSA selects representative payees for Old-Age,
Survivors and Disability Insurance beneficiaries and Supplemental Security Income
recipients if the Commissioner determines that representative payments would serve
the individual’s interests.

SSA’s primary concern is to select the payee who will best serve the beneficiary’s
interest; and preference is normally given to a parent, legal guardian, spouse or other
relative of a beneficiary.3 SSA considers payments to a representative payee to have
been used for the benefit of the beneficiary if they were spent on the beneficiary’s
current maintenance—which includes the costs “…incurred in obtaining food, shelter,
clothing, medical care, and personal comfort items.”4 SSA reported that there are about
5.4 million representative payees who manage about $44.8 billion in benefit payments
for about 6.9 million beneficiaries.

Representative payees are required to:

•     Use benefits to meet the beneficiary’s current and foreseeable needs.5

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.6

•     Maintain records accounting for the benefits received and how they were used.7

1
 The term “beneficiaries” is used generically to refer to both Old-Age, Survivors and Disability Insurance
beneficiaries and Supplemental Security Income recipients.
2
 The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
1383(a)(2)(A)(ii).
3
    20 C.F.R. §§ 404.2021 and 416.621.
4
    20 C.F.R. §§ 404.2040(a) and 416.640(a).
5
 20 C.F.R. §§ 404.2040(a) and 416.640(a), SSA Program Operations Manual System (POMS) GN
00605.067 D.2.
6
    20 C.F.R. §§ 404.2045 and 416.645.
7
    20 C.F.R. §§ 404.2035(c), 404.2065, 416.635(c) and 416.665.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                          B-1
•     Report events to SSA that may affect the individual's entitlement or benefit payment
      amount.8

•     Report any changes in circumstances that would affect their performance as a
      representative payee.9

•     Provide SSA an annual Representative Payee Report accounting for how benefits
      were spent and invested.10

We conducted a nation-wide review of individual representative payees serving 14 or
fewer beneficiaries who met our selection criteria. There were approximately 4.3 million
of these representative payees managing about $35.1 billion annually for approximately
5.5 million beneficiaries. We selected 275 payees for review (Appendix F). Table 1
identifies the number of representative payees reviewed in each region.


                       Table 1: Individual Representative Payee Population
                                          Population of      Payees       Beneficiaries
      SSA Region           Location          Payees        Reviewed        Reviewed
        I              Boston                 190,789          11              14
        II             New York               366,253          22              29
        III            Philadelphia           441,756          31              41
        IV             Atlanta              1,067,319           75             96
        V              Chicago                747,924          39              49
        VI             Dallas                 547,142          36              51
        VII            Kansas City            187,489           14             25
        VIII           Denver                  98,145            7              8
        IX             San Francisco          528,006          35              41
        X              Seattle                131,956            5              5
        Total                               4,306,779         275            359




8
    20 C.F.R. §§ 404.2035(b) and 416.635(b).
9
    20 C.F.R. §§ 404.2035(d) and 416.635(d).
10
     20 C.F.R. §§ 404.2035(c) and 416.635(c).


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)            B-2
                                                                                    Appendix C

Scope and Methodology
Our review included the population of individual representative payees in the contiguous
48 states serving 14 or fewer beneficiaries1 as of May 20, 2004. To accomplish our
objective, we:

•   Reviewed applicable Federal laws and regulations and the Social Security
    Administration’s (SSA) policies and procedures for monitoring representative payees
    and their responsibilities for the beneficiaries in their care.

•   Obtained a data extract of representative payees from SSA’s Representative Payee
    System as of May 2004.

•   Selected a random sample of 275 representative payees nationwide.

•   Verified the identities of the representative payees being reviewed and the
    beneficiaries they served.

•   Interviewed representative payees.

•   Interviewed beneficiaries served by the representative payees.

•   Visited and observed the living conditions of beneficiaries served by the
    representative payees.

•   Summarized the results of work completed in each specific SSA region and provided
    those results to the Regional Commissioners.

•   Analyzed results of the interviews and observations made of representative payees
    and the beneficiaries they served.

•   Projected results pertaining to conduit payees to the population of individual
    representative payees serving 14 or fewer beneficiaries as of May 20, 2004.

Although not required by the Quality Standards for Inspections used to conduct this
review, we assessed the reliability of computer-processed data. We determined the
data extract from the Representative Payee System to be sufficiently reliable for its
intended use. Further, any data limitations are minor in the context of this assignment,
and the use of the data should not lead to an incorrect or unintentional message. We


1
 The term “beneficiaries” is used generically to refer to both Old-Age, Survivors and Disability Insurance
beneficiaries and Supplemental Security Income recipients.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                          C-1
tested a sample of records from the data extract. Those tests included comparing
payment information from the Master Beneficiary Record and Supplemental Security
Record to beneficiary information contained in the Representative Payee System;
recalculating benefit payment totals from the Master Beneficiary Record and
Supplemental Security Record and comparing this data to information in our data
extract; and verifying the number and status of beneficiaries contained in our data
extract.

We performed our review in Baltimore, Maryland, from October 2004 to April 2005. In
addition, we performed the reviews of the 275 representative payees in Alabama,
Arizona, Arkansas, California, Colorado, Connecticut, District of Columbia, Florida,
Georgia, Illinois, Indiana, Iowa, Kansas, Kentucky, Louisiana, Maryland, Massachusetts,
Michigan, Minnesota, Mississippi, Missouri, Nebraska, Nevada, New Hampshire, New
Jersey, New Mexico, New York, North Carolina, Ohio, Oklahoma, Oregon,
Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, Vermont,
Virginia, Washington, West Virginia, Wisconsin and Wyoming from July to December
2004. Our review was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)        C-2
                                                                                      Appendix D

Sampling Methodology
Sampling Frame
We obtained a data extract of individual representative payees with 14 or fewer “active”1
beneficiaries2 as of May 20, 2004 identified from the Agency’s Representative Payee
System (RPS). The population of individual representative payee records meeting this
criterion was 5,380,635.3 To promote the efficient and timely completion of our review,
we removed from this population individuals having the following characteristics:
    •   residing outside the 48 contiguous States;
    •   identified within RPS as only serving as their own representative payee;
    •   having all beneficiaries in their care in non-current status;
    •   having an invalid State code or military address; and
    •   managing total funds of $50 or less each month.

Individuals with these characteristics who were removed from our population received
about $4 billion in benefit payments annually. Payments to individuals removed from
our population represent less than 11 percent of the total benefit payments managed by
individual representative payees serving 14 or fewer beneficiaries as of May 2004.

                  Group Removed from Population                     Amount of Payments
              Outside 48 States                                          $1.08 billion
              Only Serving as Own Payee                                   2.90 billion
              All Beneficiaries in Non-Pay Status                          .00 billion
              Invalid State Code or Military Address                       .01 billion
              Managing $50 or Less Monthly                                 .02 billion
                                   Total                                 $4.01 billion

Removal of these individuals reduced our population to 4,306,779 representative
payees serving 5,520,303 beneficiaries. These representative payees managed about
$35.1 billion in benefit payments annually. We selected a random sample of
275 representative payees from this population for review.

1
  For the purposes of our review, the term “active” is used to describe a beneficiary identified as having a
representative payee within the Representative Payee System. The term is not used to denote the
beneficiary’s pay status.
2
 The term “beneficiary” is used generically to refer to both Old-Age, Survivors and Disability Insurance
beneficiaries and Supplemental Security Income recipients.
3
 Based on prior work concerning representative payees, we concluded the RPS does not include all
beneficiaries who have a representative payee. We performed an analysis by reconciling the total RPS
database to the Agency’s payment records to determine the extent these data were missing from RPS. It
was about 2 percent of the RPS records. Based on this analysis, we conclude the missing data would not
negatively impact the quality of our study or potential findings.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                           D-1
Replacement Sample Items
We selected 275 representative payees randomly at the beginning of our review.
During our review, eight replacement sample items were required. These replacement
sample items were needed because:
•         3 representative payees had stopped serving as representative payees;
•         1 representative payee died;
•         1 representative payee’s only beneficiary died;
•         1 representative payee and beneficiary moved outside the 48 contiguous States;
•         1 representative payee’s only beneficiary stopped receiving benefits upon turning 18
          years old before we contacted the representative payee; and
•         1 representative payee was incorrectly recorded as an individual representative
          payee in the Representative Payee System.

Conduit Representative Payees
SSA policy states that conduit payees do not exercise control over the funds and cannot
accurately account for how the funds are spent.4 See GN 00605.066 B.2 for SSA’s
definition of conduit payee. SSA policy states a conduit payee situation may indicate
lack of payee interest or the beneficiary is capable of managing his or her own benefits.
When a conduit payee is indicated, SSA is required to determine whether a new payee
is needed or the beneficiary is capable of receiving direct payment.5 We found eight
payees serving nine beneficiaries functioned as conduit payees by providing the
beneficiaries or other parties the entire amount of the benefit payment without
instruction.

                           Table 1: Funds Managed by Conduit Payees

                                   Conduit               Dollars                   Dollars
                                   Payees               (Monthly)                (Annually)6
    Total Sample Results                 8                   $5,838                    $70,056
    Point Estimate                 125,288              $91,429,003             $1,097,148,036
    Projection Lower Limit          62,691              $36,449,641
    Projection Upper Limit         223,417             $146,408,365
Note: Projections are at the 90-percent confidence level.




4
    SSA Program Operations Manual System GN 00605.067 D.1.
5
    Id.
6
    The monthly amounts were multiplied by 12 (12 months=1 year) to estimate the annual dollar amounts.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                      D-2
                                                                                   Appendix E

Sampling Results in Regions with “At-risk”
Dollars
The following table shows the benefit payments we believe were at-risk of not being
managed appropriately by representative payees in the Social Security Administration’s
New York and Philadelphia Regions.


                                                                                         Dollar
                                                                         Number of
                                                                                        Amount
                                     Sample Results                        Cases
   Region                                                                              of Cases1
New York               A Representative Payee Did Not Ensure
                       That All Benefits Went for the                          1        $2,844
                       Beneficiary’s Needs
Philadelphia           A Representative Payee Refused to
                                                                               1        $7,092
                       Cooperate




1
    For each case, the 12-month estimate was based on the monthly amount times 12.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)
                                                                                                               Appendix F

Characteristics of the Sample and Population
Representativeness of Sample to Population-at-Large
Based on the final representative payees sampled, we analyzed the sample items
chosen to ensure they represented the population-at-large.

We compared the percentage of representative payees by Social Security
Administration (SSA) region in the population and our chosen sample items.


                                                        Percentage Representative Payees
                                                      in Population and Sample (by Region)

                              30.00




                              25.00




                              20.00
  Percentage




                                                                                                                   Sample Percentage
                              15.00
                                                                                                                   Population Percentage



                              10.00




                               5.00




                               0.00
                                       Region Region Region Region Region Region Region Region Region Region
                                         1      2      3      4      5      6      7      8      9      10
               Sample Percentage        4.00   8.00   11.27   27.27   14.18   13.09   5.09   2.55   12.73   1.82
               Population Percentage    4.43   8.50   10.26   24.78   17.37   12.70   4.35   2.28   12.26   3.06
                                                                         Region



Our randomly selected sample items fell in each SSA region in approximately the same
proportion as the population-at-large.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                                                       F-1
We compared the percentage of representative payees by “monthly dollar value
managed” in the population and our chosen sample items.



                                                             Percentage Representative Payees
                                                in Population and Sample (by Monthly Dollar Value Managed)

                                     40.00


                                     35.00


                                     30.00


                                     25.00
  P e rc e n ta g e




                                                                                                                           Sample Percentage
                                     20.00
                                                                                                                           Population Percentage

                                     15.00


                                     10.00


                                      5.00


                                      0.00
                                                                                                                $1000 or
                                              $51 to $199 $200 to $399 $400 to $599 $600 to $799 $800 to $999
                                                                                                                  more
                      Sample Percentage          4.00        13.45        36.73             13.82    9.82        22.18
                      Population Percentage      6.07        13.55        37.78             17.09    9.41        16.10
                                                                                  $ Value



Our randomly selected sample items fell in each monthly dollar value managed
category in approximately the same proportion as the population-at-large.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                                                               F-2
We compared the percentage of representative payees by “beneficiary1 entitlement” in
the population and our chosen sample items.


                                                          Entitlement Type of Beneficiary
                                                            in Population and Sample

                                       70.00



                                       60.00



                                       50.00



                                       40.00
    P e rc e n ta g e




                                                                                                         Sample Percentage
                                                                                                         Population Percentage
                                       30.00



                                       20.00



                                       10.00



                                        0.00
                                                Title 2                Title 16             Concurrent
                        Sample Percentage       61.28                   31.48                  7.24
                        Population Percentage   62.80                   28.34                  8.86
                                                                   Entitlement Type



Our randomly selected sample items fell in each beneficiary entitlement type in
approximately the same proportion as the population-at-large.

In conclusion, the randomly selected sample of 275 representative payees was
representative of the characteristics shown in the population-at-large, as shown by the
above charts of three separate characteristics (SSA region, monthly dollar value
managed category, and beneficiary entitlement type).




1
 The term “beneficiaries” is used generically to refer to both Old-Age, Survivors and Disability Insurance
beneficiaries and Supplemental Security Income recipients.


Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)                                             F-3
                                                                          Appendix G

Agency Comments




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)
                                         SOCIAL SECURITY


MEMORANDUM                                                                            34189-24-1272


Date:      July 13, 2005                                                        Refer To: S1J-3

To:         Patrick P. O’Carroll
            Inspector General

From:       Larry W. Dye           /s/
            Chief of Staff

Subject:    Office of Inspector General (OIG) Draft Report, “Nation-wide Survey of Individual
            Representative Payees for the Social Security Administration” (A-13-05-25006)—
            INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments to the
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Ms. Candace Skurnik on extension 54636.

           Attachment:
           SSA Response




           Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)         G-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“NATION-WIDE SURVEY OF INDIVIDUAL REPRESENTATIVE PAYEES FOR THE
SOCIAL SECURITY ADMINISTRATION” (A-13-05-25006)

Thank you for the opportunity to review the OIG draft report. We appreciate OIG’s
review of individual Representative Payees (Rep Payees) and were pleased that OIG
found that the needs were being met for 356 of the 359 beneficiaries interviewed. We
are encouraged that OIG did not find evidence of abuse with any of the individual Rep
Payees in the sample. We note OIG’s discovery of several “other matters” that require
the Agency’s attention and we are rectifying those in a timely fashion. We agree with
the findings and recommendations contained in the report.

Our responses to the specific recommendations are provided below. We have also
included technical comments for your consideration.

Recommendation 1

The Social Security Administration (SSA) should increase outreach efforts to educate
Rep Payees on their responsibility to manage the beneficiaries’ funds appropriately and
report any changes that may affect their capacity to serve as the Rep Payee or any
changes that may affect beneficiaries’ eligibility or benefit payment amounts.

Comment

We agree. SSA currently provides Rep Payees with information about payee duties,
including proper money management and reporting responsibilities at various times in
the payee process. In the application process, we provide the Rep Payee applicant with
a verbal explanation of payee duties and responsibilities, a printed list of those duties
and responsibilities, along with the booklet “A Guide for Representative Payees.” In the
annual accounting process, we provide a reminder list of payee duties and
responsibilities attached to the annual accounting form that each Rep Payee must
complete.

OIG and SSA both agree that the messages on proper money management and
reporting responsibilities should be made more prominent. Therefore, we will revise the
lists of payee duties and responsibilities and the payee booklet to provide more
emphasis on proper money management and reporting responsibilities.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)       G-2
Recommendation 2

SSA should take appropriate follow-up actions to ensure that the 10 recommendations
reported to the Regional Commissioners are implemented.


Comment

We agree. Most of the audit recommendations made in the individual regional reports
have been implemented. We will continue to follow-up on the status of implementing all
of the audit recommendations contained in the reports that we agreed to implement.

[In addition to the items listed above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)       G-3
                                                                          Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739
   Randy J. Townsley, Audit Manager, (410) 966-1039

Acknowledgments
In addition to those named above:

   Atlanta Audit Division
   Birmingham Audit Division
   Boston Audit Division
   Chicago Audit Division
   Dallas Audit Division
   Data Analysis and Technology Audit Division
   Kansas City Audit Division
   New York Audit Division
   Philadelphia Audit Division


   Linda Webester, Auditor-in-Charge
   Eugene Crist, Auditor
   Jerrod Hinton, Office Automation Clerk
   Melinda Tabicas, Auditor
   Wilfred Wong, Auditor
   Charles Zaepfel, Computer Specialist
   Kimberly Beauchamp, Writer-Editor
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-05-25006.




Nation-wide Review of Individual Representative Payees for SSA (A-13-05-25006)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
